Louis L. Galvis
Direct: (970) 223-4420
lgalvis@sessions.legal

September 13, 2021
Via Electronic Filing System
Supreme Court of the United States
Attn.: Clerk of the Court
1 First Street, NE
Washington, DC 20543
Re:

Jessica Graulau v. Credit One Bank, N.A.
Case No. 21-5372

Dear Clerk of the Court:
SESSIONS, ISRAEL & SHARTLE, LLC represents respondent, Credit One Bank, N.A.
(“Credit One”), in the above referenced matter.
In accordance with Rule 30 of the United States Supreme Court Rules of Procedure,
Credit One respectfully moves this Court for a 30-day extension of time until October 13,
2021, to file its response to the Petition for a Writ of Certiorari (“Petition”) filed by
petitioner, Jessica Graulau (“Petitioner”).
On August 9, 2021, Petitioner filed her Petition in the above-styled case. The
Petition was placed on the docket on August 13, 2021 so Credit One’s response is due
September 13, 2021. Credit One, however, was not notified of the Petition was placed on
the docket until September 8, 2021. Therefore, Credit One respectfully requests the Court
grant Credit One’s request for a 30-day extension of time through and including October
13, 2021 for Credit One to respond to the Petition. Credit One has not previously requested
or received any prior extensions.
Sincerely,
/s/ Louis L. Galvis
Louis L. Galvis
cc: Jessica Graulau, pro se – via U.S. mail

65010 Solar Road Montrose, Colorado 81403
(970) 218-9086 P

(877) 334-0661 F

www.sessions.legal

CALIFORNIA • COLORADO • FLORIDA • GEORGIA • ILLINOIS • LOUISIANA • NEW JERSEY • NEW YORK • PENNSYLVANIA • TEXAS

